In the
Supreme Court of the Anited States

Steven T. Waltner and Sarah V. Waltner,
Petitioners,
v.
United States,
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit

4
CERTIFICATE OF SERVICE
yp

DONALD W. WALLIS
Counsel of Record
Upchurch, Bailey &
Upchurch, P.A.
780 N. Ponce de Leon Blvd.
Post Office Drawer 3007
St. Augustine, FL 32085
(904) 829-9066
dwallis@ubulaw.com
Counsel for Petitioners
CERTIFICATE OF SERVICE

On August 24, 2019, the undersigned caused the Respondent United States
to be served, pursuant to Rule 29.4(a), by depositing into the U.S. Mail, postage pre-
paid, three copies of the Petition for Writ of Certiorari of Steven T. Waltner and
Sarah V. Waltner to counsel for the United States:

Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N. W., Room 5614
Washington, DC 20530-0001
(202) 514-2203
In accordance with Rule 29.5 of the Rules of the United States Supreme

Court, this is to certify that all parties required to be served in this matter have

been served.

 

DONALD W. WALLIS
Counsel of Record

UPCHURCH, BAILEY &
UPCHURCH, P.A.

780 North Ponce de Leon Blvd.

Post Office Drawer 3007

St. Augustine, FL 32085-3007
(904) 829-9066

dwallis@ubulaw.com

Counsel for Petitioners
Steven and Sarah Waltner
